No.

3ln mbe

~upreme ~ourt of tbe fflniteb ~tates
CHARTER COMMUNICATIONS, INC. AND
SPECTRUM MANAGEMENT HOLDING COMPANY, LLC,

Petitioners,

v.
STEVE GALLION

Respondent,
and
THE UNITED STATES OF AMERICA,

Respondent-Intervenor.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I, Richard P. Bress, counsel of record for Petitioners Charter Communications,
Inc. and Spectrum Management Holding Company, LLC, and a member of the Bar of
this Court, hereby certify that on the 1st day of November, 2019, I caused to be served
three (3) copies of the Petition for a Writ of Certiorari in the above-referenced case by
first-class mail, postage prepaid, upon counsel as listed below:

Todd M. Friedman
Law Offices of Todd M. Friedman, P.C.
21550 Oxnard St., Suite 780
Woodland Hills, CA 91367
(877) 206-4 741
tfriedman@toddflaw.com

Counsel for Respondent
Lindsey Powell
United States Department of Justice
Civil Division, Room 7226
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 616-5372
lindsey.e. powell@usdoj.gov
Noel Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov

Counsel for United States
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to the above-listed
counsel at the referenced email address.

2

rick. bress@lw.com

Counsel for Petitioners

3·

